HHS/OIG, Audit -"Ineligible Medicare Payments to Skilled Nursing Facilities Under the Administrative Responsibility
of Blue Cross and Blue Shield of
Wyoming,"(A-05-04-00059)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Ineligible Medicare Payments to Skilled Nursing Facilities Under the Administrative Responsibility of Blue Cross
and Blue Shield of Wyoming," (A-05-04-00059)
November 16, 2004
Complete
Text of Report is available in PDF format (169 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine the extent of ineligible Medicare Skilled Nursing Facility (SNF) payments,
attributable to Blue Cross and Blue Shield of Wyoming (BCBS of Wyoming), contained in a database of payments made under
the administrative responsibility of nine Medicare Fiscal Intermediaries (FI’s).  Our review of the database
estimated that $194,247 of ineligible SNF payments were made under the administrative responsibility of BCBS of Wyoming
during calendar years 1997 through 2001.  The overpayments occurred due to the absence of an automated cross-check,
within the Centers for Medicare & Medicaid Services (CMS) Common Working File and the FI’s claims processing
systems, verifying that a three consecutive day inpatient hospital stay occurred prior to SNF admission.  BCBS of
Wyoming has been instructed by the CMS not to seek recovery of overpayments identified during our audit and as a result,
no recovery activities have been initiated.